Peace Corps
Office of Inspector General




Semiannual Report to Congress
October 1, 2008 - March 31, 2009
The cover photo was taken in front of the Peace Corps/Kiribati office. The post was closed in fiscal
year 2008.
                 PEACE CORPS

       Office of Inspector General

                                Vision

To conduct audits, evaluations, and investigations that uphold the
effectiveness, efficiency, and integrity of the Agency in achieving the
goals set forth in the Peace Corps Act that Peace Corps Volunteers
help the people of the countries in which they serve in meeting
their needs for trained manpower, and in helping promote a better
understanding of the American people on the part of the peoples
served, and a better understanding of other peoples on the part of the
American people.




          Semiannual Report to Congress
         October 1, 2008 – March 31, 2009
                                    TABLE OF CONTENTS


     tHighlights from this Report	                                                           1
    	 Message from the Inspector General	                                                    1

	 Management and Administration 	                                                            3
 	 Agency Context	                                                                           3
	 OIG Staffing                                 	                                             3

	     Advice and Assistance Provided to the Agency and Others                       	        5
	    Breaches in Personal Identifiable Information   	                                       5
	    Review of Donations to Fund Entertainment Expenses        	                             6
	    Peace Corps/Solomon Islands Imprest Fund                                   	            7
	    Investigation of Fraud and Mismanagement                           	                    7
	    Internet Scam Alert                           	                                         8
	    Referrals to the OIG                	                                                   8

	 Audits                                                                                	    9
	 Overview	                                                                                  9
	 Summary of Audits 	                                                                       10
	 Peace Corps Fiscal Year 2008 Financial Statement Audit            	                       10
	     Fiscal Year 2008 Federal Information Security Management Act Review	                  11
	     Peace Corps/Purchase Card Program: Audit	                                             12
	     Peace Corps/Guatemala: Audit	                                                         13
	     Peace Corps/Guinea: Audit	                                                            14
	     Peace Corps/Samoa: Audit	                                                             15
	     Peace Corps/Swaziland: Audit	                                                         16
	     Peace Corps/Uganda: Follow-up Audit 	                                                 16

	 Program Evaluations	                                                                      18
	 Overview 	                                                                                18
	 Summary of Evaluations 	                                                                  19
	 Peace Corps/Dominican Republic: Program Evaluation 	                                      19
	     Peace Corps/Guyana: Program Evaluation 	                                              20 	
	     Peace Corps/Nicaragua: Program Evaluation 	                                           21
	
    	 Investigations            	                                                           22
	 Overview	                                                                                 22
	 Violent Crimes Against Volunteers                                 	                       22
 	 Violent Crime Cases                  	                                                   23
 	 On-going Investigation of a Murdered Volunteer 	                                         23
 	 Additional Active Violent crime Investigations 	                                         23
	 Judicial Disposition of Cases Involving Violent Crimes Against Volunteers	                24
    	 Title 18 Criminal and Other Investigations 	                                          25
	     Investigation of Federal Employees’ Compensation Act Recipients       	               25
	     Active Title 18 Criminal and Other Investigations 	                                   26
	     Closed Title 18 Criminal and Other Investigations 	                                   26
	
                                                                                             5
	 Tables 	                                                                  30
	 TABLE 1: List of Reports: Audits and Evaluations	                         30
	 TABLE 2: Reports Issued with Questioned Costs or Funds Put to
	 Better Use 	                                                              31
	 TABLE 3: Status of Reports Issued by OIG with Costs Questioned 	          32
	 TABLE 4: Status of Reports Issued by OIG with Funds Put to Better Use 	   33
	 TABLE 5: Reports with Recommendations on which Corrective Action
	 has not been completed 	                                                  34
	 TABLE 6: Summary of Investigative Activity 	                              35
	 TABLE 7: Summary of Hotline and Other Complaints	                         36
	 TABLE 8: References to Reporting Requirements of the Inspector
	 General Act	                                                              37
the Inspector   General Act 	    36
Highlights from this Report

                      Message from the Inspector General

                       It is my pleasure to present the Peace Corps Office of Inspector
                       General’s (OIG) Semiannual Report to Congress for the
                       period of October 1, 2008 through March 31, 2009. This
                       report is required by the Inspector General Act of 1978, as
                       amended, and covers the work performed by the OIG during
                       the period indicated. OIG activities during this reporting
                       period demonstrate our continued commitment to promote
                       and increase the effectiveness and efficiencies of Peace Corps
                       programs and operations, as well as maintain standards
                       established by the Council of Inspectors General on Integrity
                       and Efficiency (CIGIE) formerly the President’s Council
 on Integrity and Efficiency (PCIE) and the Executive Council on Integrity and
 Efficiency (ECIE) and other federal agencies.

 The Audit Unit has continued its critical work in connection with the Agency
 Financial Statement Audit by assisting the Agency in improving the overall
 financial health of the Peace Corps in accordance with the requirements of the
 Federal Managers Financial Integrity Act and the Federal Financial Management
 Improvement Act. During this reporting period, our auditors also completed audits
 on the Agency’s Purchase Card Program, and post audits in Guatemala, Guinea,
 Samoa, Swaziland, and performed a follow-up audit in Uganda. In addition, our
 auditors provided advice and assistance to the Agency in the areas of donations
 received by Peace Corps to fund entertainment expenses and imprest fund imbalances
 in the Solomon Islands.

 During this reporting period, the Evaluation Unit issued reports for program
 evaluations conducted in the Dominican Republic, Guyana, and Nicaragua. In
 addition, program evaluation visits were conducted in Jordan, Ghana, Suriname,
 and Belize. The reports detailing these evaluations will be issued in the next
 reporting period. The Evaluation Unit also began a process of conducting a survey of
 stakeholders after the issuance of a final evaluation report to determine the value of
 the evaluation process and reports. To date, the feedback received has been favorable.

 This reporting period was a time of transition for the Investigation Unit. On
 September 1, 2008, the coordination of investigative activities involving violent
 crimes committed against Peace Corps Volunteers was transferred from the OIG
 to the Office of Safety and Security. However, the OIG continues to coordinate


  Peace Corps Office of Inspector General                                     
investigative efforts for those violent crime cases occurring before the transfer. This
reporting period the OIG continued to assist the Federal Bureau of Investigation
Legal Attaché located in Dakar, Senegal, and the Department of State Regional
Security Officer located in Libreville, Gabon, in coordinating investigative activities
related to a Peace Corps Volunteer murdered in Gabon in 1998. The OIG will
continue to provide coordination for 20 active cases and 100 preliminary inquiries
of ongoing legacy cases involving violent crimes committed against Peace Corps
Volunteers. During this reporting period, we closed 206 preliminary inquiries and/or
investigative cases.

During this reporting period, the Investigation Unit also conducted investigations
into allegations of fraud, bribery, and other misconduct committed by Peace Corps
employees, contractors and Volunteers. Included in theses investigations are an
investigation into allegations of significant misconduct, some possibly criminal
in nature, committed by a high ranking Agency employee; solicitation of a bribe
and theft of government funds involving an employee at a post in East Africa; and
fraudulent vouchers being submitted by a third country national contractor at a
post in the South Pacific. In addition, the Investigation Unit provided advice and
assistance to Agency management in the form of a Management Implication Report
concerning the reoccurring breaches of personal identifiable information and a Fraud
Alert to the Agency and the public that detailed an internet scam involving the
adoption of a pet purportedly owned by a Peace Corps Volunteer.

The OIG continues to search for ways to assist the Agency in improving its programs
and operations. In an effort to maximize the impact of our Audit and Evaluation
reports, the OIG will begin to include more headquarter components in our annual
plan. If internal controls and efficiencies of Peace Corps policies and systems can
be improved in headquarters, the results should be reflected in the operations of
the overseas posts. In addition, the OIG is beginning to track findings in post
evaluations and audits in an effort to detect trends that may highlight policies or
systems that need to be strengthened Agency wide.

At the end of the reporting period, Peace Corps management remains in transition,
and the OIG continues its work to ensure that Peace Corps programs and operations
are free of waste, fraud, abuse, and mismanagement.




	                                  Kathy A. Buller
	                                  Inspector General	



                Semiannual Report to Congress   October 1, 2008 - March 31, 2009
 Management and
Management  and A
                Administration
                 dministration


                                       Agency Context

 At the beginning of FY 2009, 7,876 Peace Corps Volunteers and Trainees were
 serving in 76 countries at 70 posts. This total includes 241 Volunteers and Trainees
 funded by the President’s Emergency Plan for AIDS Relief (PEPFAR) working on
 HIV/AIDS projects in 11 countries. Thirty-six Peace Corps Response Volunteers
 were serving overseas in short-term assignments in nine countries; thirteen of the
 Peace Corps Response Volunteers were funded by PEPFAR.

 The Volunteers and their programs are supported by 843 American direct hire
 staff: 205 overseas; 101 in the regional recruiting offices; and the remaining 537 in
 headquarters. Approximately 2,000 locally hired personnel complete post staffing.
 The Peace Corps also has corporate contracts domestically and overseas, principally
 for guard services and training, and hires expert consultants, largely for training and
 financial management.

                                         OIG Staffing

 During the reporting period, the Agency filled two vacant criminal investigator
 positions. In addition, Executive Manager Roberta Raftovich transferred to the
 Investigation Unit as a Criminal Research Specialist.

 Joyce Shores joined the OIG in November 2008, after an 18 year law enforcement
 career with the U.S. Customs Service. Joyce has conducted multiple international
 investigations of major criminal organizations for smuggling, fraud, money
 laundering, narcotics, and child exploitation. Joyce is a recipient of the Drug
 Enforcement Agency Administrator’s Award and several Commissioner’s Unit
 Citations for investigative excellence. A Syracuse University graduate, Joyce also
 holds Masters degrees in Industrial Psychology and Public Administration from
 California State University.

 Mark Supple joined the OIG in January 2009, and has 17 years of federal law
 enforcement experience, investigating white collar and financial crimes with
 U.S. Customs, the Nuclear Regulatory Commission, and the Food and Drug
 Administration. Mark has worked a variety of investigations, including undercover
 money laundering investigations of drug smuggling organizations; the illegal export
 of U.S. nuclear equipment to Middle-Eastern countries; and pharmaceutical/medical
 device fraud by multi-national corporations. Mark graduated from the Florida State
 University with a B.S. in International Business and is fluent in Spanish.


      Peace Corps Office of Inspector General                                      
Criminal investigator David Berry transferred from the Peace Corps/OIG in
November 2008, to a position with the National Archives/OIG.

At the end of this reporting period, the position of Deputy Inspector General/Legal
Counsel is vacant.




                Semiannual Report to Congress   October 1, 2008 - March 31, 2009
 Adviceand
Advice      Assistance PProvided
        and Assistance   rovided

  to
   tothe
      the Agency  and O
          Agency and  Others
                        thers

 During this reporting period, we provided advice to management on a number
 of serious issues that were brought to our attention. This advice was conveyed in
 written form and through briefings and meetings with the Director of the Agency
 and other senior-level Peace Corps officials.

                Breaches in Personal Identifiable Information

 We issued a Management Implication Report to the Agency concerning the
 reoccurring breaches in personal identifiable information on March 9, 2009.
 Specifically, in 2008, staff in the Office of Medical Services pre-service assessment
 unit forwarded medical forms with personal identifiable information, including
 social security numbers, to the wrong applicant on three separate occasions. In
 addition, a medical lab report was attached to the wrong authorization form and was
 then forwarded to the wrong individual. Based upon the lab report, this individual
 scheduled an unnecessary evaluation with her physician.

 On June 18 2007, the Office of Personnel Management issued federal guidance
 on protecting social security numbers and combating identity theft by eliminating
 the unnecessary use of social security numbers. Peace Corps and other agencies
 were tasked with reviewing their processes to identify instances in which the
 collection or use of the social security number is superfluous. In addition, the
 Office of Management and Budget (OMB) mandated that agencies reduce the
 volume of information they possess, the risks to the information, and the burden of
 safeguarding it by collecting only necessary information and managing it properly.
 Under current federal requirements issued by OMB, the OIG is tasked with
 independently evaluating the effectiveness of its agency’s programs.

 The OIG investigation of breaches of personal identifiable information that occurred
 in 2008 found that a Volunteer applicant’s telephone number and social security
 number appeared at the bottom of several routinely used medical application forms,
 e.g., follow-up letters requesting additional medical information from applicants, as
 well as instructions and reimbursement information for the examining physician.

 Human error was attributed to each of these four breaches of personable identifiable
 information. In each of these instances, applicants were informed that their social
 security numbers and/or other personable identifiable information had been sent to
 external parties. Due to the potential exposure and/or loss of personal identifiable
 information, the aforementioned breaches were reported to the United States
 Computer Emergency Readiness Team, Office of Homeland Security.
   Peace Corps Office of Inspector General                                    
These breaches in personal identifiable information necessitate that the Agency make
changes in how such information is handled by the Peace Corps. In the Agency’s
response to the Management Implication Report, management officials cited the past
closure of audit findings and actions they are taking or intend to take to address prior
OIG audit recommendations. It should be noted that in closing recommendations,
the OIG does not certify that the actions have been implemented/taken or that we
have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, we noted that the breaches in OMS may
require a follow-up audit/investigation to confirm that action has been taken and
evaluate the impact.

         Review of Donations to Fund Entertainment Expenses

The Peace Corps OIG reviewed the Agency’s legal basis for using donations to fund
entertainment expenses. During the audit of the government purchase card, OIG
identified $9,012.50 in expenses for food, beverages, flowers, and the set up of a
banquet to celebrate the Peace Corps’ 45th Anniversary. Peace Corps paid for these
expenses using donations. The Peace Corps Act provided Peace Corps gift authority.
However, the OIG questioned whether the Peace Corps exceeded the $5,000 and
$4,000 statutory limitations on entertainment expense established in the Peace
Corps Act and the annual appropriations act, respectively. This concern is especially
important because in 2011, Peace Corps will celebrate its 50th Anniversary with
many events meeting the entertainment definition established by the Government
Accountability Office. As of December 2008, Peace Corps already received
donations exceeding $110,000 for the 50th Anniversary events.

At the time of the OIG review, the Peace Corps Office of General Counsel (OGC)
had not issued a specific legal opinion on the use of donations for entertainment
expenses, but relied on various legal decisions and interpretations from the
Comptroller General the Government Accountability Office Principles of Federal
Appropriations Law. Subsequently, OGC provided the OIG with a written defense
for the use of donations for entertainment related expenses. The OGC stated that
the entertainment expenses planned for anniversary events are in furtherance of a
legitimate purpose under the Peace Corps Act and that donations may augment
entertainment funds in excess of appropriated fund usage limitations. The OIG
accepted the opinion of the OGC, but advised the Peace Corps to inform Congress
that a special “50th Anniversary” fund has been established using donated monies
and request that the Congress specifically authorize the fund’s use for entertainment
expenses associated with anniversary events and activities.




               Semiannual Report to Congress   October 1, 2008 - March 31, 2009
                  Peace Corps/Solomon Islands Imprest Fund

In conjunction with the closure of PC/Solomon Islands, we reviewed an imbalance of
the PC/Solomon Islands’ imprest fund that had existed over several years.

Volunteers and U.S direct hire staff departed the Solomon Islands in June of 2000.
During this period until the final closure of the post in August 2008, the post was
maintained in an operationally suspended state by two host country staff members.
Since 2004, PC/Solomon Islands had been reporting several imbalances in its imprest
fund. Although most of the imbalances were subsequently resolved, an imbalance
of Solomon Islands Dollars 12,900 (approximately US$1,901.53) had remained on
the cashier’s ACS 365 report since April 2007. This imbalance was researched by
headquarters staff in an attempt to resolve it but it continued to remain unexplained.

We reviewed imprest fund activity and transactions for the period June 2003 -
August 28, 2008. Our audit work disclosed that the imbalances were the result of
numerous errors related to the preparation of the cashier monthly reconciliations,
processing of transactions by headquarters, and processing of transactions and
reporting by the U.S. Treasury. Further, some imbalances were compounded when
efforts to correct the errors resulted in additional errors. There were also several
contributing factors that lead to the imbalances in the PC/Solomon Islands imprest
fund including:
•	 No access to automated systems for maintaining accurate accountability.
•	 Inadequate staff training.
•	 Long delays in the posting of transactions and consolidation of transactional data
   in the accounting system.
•	 Elimination of transactions in efforts to force monthly reconciliation.
•	 Misreporting of transactions.

Our review of the longstanding imbalances in the imprest fund did not disclose that
the imbalances were the result of fraud. Using the available data we were able to
accurately reconcile the imprest fund prior to closure of the post and disestablishment
of the imprest fund.


      Investigation of Allegations of Fraud and Mismanagement

In February 2009, we sent an auditor and an investigator to look into several serious
allegations related to fraud, waste, abuse and mismanagement at a Peace Corps post
in South America. As a result, an investigation was opened and an extensive audit
conducted. The OIG was able to substantiate several of the allegations. At the end
of the reporting period, the results of the investigation and audit are pending.




  Peace Corps Office of Inspector General                                     
                               Internet Scam Alert

On November 24, 2008, we issued a news release warning the American public to
be vigilant against internet scams involving pet adoptions from Africa by a person or
persons claiming to be affiliated with the agency. for example, one victim responded
to an Internet ad about a Yorkshire Terrier puppy allegedly being given away by a
Peace Corps Volunteer in Cameroon. The victim made a wire transfer to acquire the
puppy before realizing something was potentially wrong. The fraud alert noted that
names used are often fictitious. The general public can contact the OIG to confirm
the authenticity of individuals affiliated with the Peace Corps.

                               Referrals to the OIG

As a result of the transfer of the violent crimes function and the continued turnover
of personnel in Peace Corps, the Inspector General, in coordination with the
Acting Regional Directors, issued guidance concerning the types of misconduct or
wrongdoing that Agency employees, contractors, expert consultants, Volunteers, and
Trainees should report to the OIG.




              Semiannual Report to Congress   October 1, 2008 - March 31, 2009
                                        Audits

                                            Overview

The Peace Corps’ OIG Audit Unit focuses primarily on the Agency’s programs,
financial and administrative operations, and personnel that support the Peace Corps’
mission and its Volunteers serving around the world. We accomplish this through
audits of the Agency’s field activities at overseas posts, and its administrative support
functions at headquarters and domestic recruiting offices. Although certain audits
may require a team effort, most audit engagements are conducted by a single auditor
under the direction and guidance of the Assistant Inspector General for Audit. OIG
also utilizes contracts with independent auditing firms and engages individual experts
for some highly technical audits. Further, we are charged with the responsibility
of assisting with Peace Corps Hotline investigations requiring audit expertise and
specific skill sets.

Our audit work typically examines Agency operational effectiveness and financial
management. Audit objectives are designed to assess whether good management
practices are being followed, assets are adequately safeguarded, managers are properly
accounting for assigned resources, and operations are being carried out in compliance
with applicable Peace Corps policy and federal laws and regulations. The audits are
performed in accordance with generally accepted government auditing standards
issued by the Comptroller General of the United States.

Additionally, auditors may assist with the review of allegations of fraud, waste, abuse,
and mismanagement related to Peace Corps programs and operations. Allegations
may include potential improper charging of the government for goods and services
either not provided or provided at inflated rates. Audit assignments involve extensive
problem solving, and planning and coordination, often at overseas locations
and covering a large variety of work processes carried out in several interrelated
organizations.

The Accountability of Tax Dollars Act of 2002 mandates that the Peace Corps
subject their financial statements for audit. OIG oversees and serves as the technical
representative for contracts with an independent public accounting (IPA) firm
to perform the annual audit of the Agency’s financial statements. To fulfill our
responsibilities, we monitor the IPA’s work to ensure that it is of acceptable quality,
in compliance with Federal law and applicable industry standards, and is completed
within the Office of Management and Budget (OMB) established milestones. We are
also responsible for meeting specific requirements set out by the Federal Information
Security Management Act. These requirements include performing reviews of the


  Peace Corps Office of Inspector General                                      
Peace Corps’ information systems security program and reporting related selected
data to the OMB annually.


                               Summary of Audits

        Peace Corps Fiscal Year 2008 Financial Statement Audit

The OIG utilized a contract with Urbach Kahn and Werlin LLP (UKW), an
independent certified public accounting firm, to audit the Agency’s financial
statements as of September 30, 2008 and 2007. The contract required that the audit
be done in accordance with generally accepted government auditing standards; the
OMB’s Bulletin 07-04, Audit Requirements for Federal Financial Statements; and the
Government Accountability Office/President’s Council on Integrity and Efficiency
Financial Audit Manual. UKW’s audit reports for FY 2008 included: (1) an opinion
on the financial statements, (2) a report on internal control, and (3) a report on
compliance with laws and regulations.

In the audit of the Peace Corps, UKW found that the financial statements presented
fairly, in all material respects, the financial position of the Agency as of September
30, 2008 and 2007, and further, its net cost, changes in net position, and budgetary
resources conformed with generally accepted accounting principles. In addition,
UKW reported that there were no material weaknesses related to internal control.
OMB Bulletin 07-04 defines a material weakness as a significant deficiency, or
combination of significant deficiencies, that results in a more than remote likelihood
that a material misstatement of the financial statements will not be prevented or
detected. However, UKW’s report on internal control did identify some significant
deficiencies:
•	 Certain controls associated with property, plant, and equipment were inadequate
    and require improvement.
•	 Internal control over the business processes relating to undelivered orders and
    accounts payable need further enhancement.
•	 The Office of the Chief Financial Officer’s policy on reporting host country
    contributions (HCC) in the financial statements is not consistent with generally
    accepted accounting principles. Additionally, internal control over receipting and
    recording HCC cash donations needs strengthening.
•	 Recording of recoveries is not consistent with U.S. Standard General Ledger
    guidance.
•	 Full certification and accreditation of all of Peace Corps’ information systems has
    not been achieved.
•	 Contingency planning related to the information system environment is deficient
    and requires certain measures for improving the process.
 •	 Access control, application software development, and change control weaknesses
    related to the financial reporting system need to be remedied.


10              Semiannual Report to Congress   October 1, 2008 - March 31, 2009
OMB Bulletin 07-04 defines a significant deficiency as a deficiency in internal
control, or a combination of deficiencies, that adversely affects the entity’s ability
to initiate, authorize, record, process, or report financial data reliably in accordance
with generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected. UKW found no instances of
reportable noncompliance with laws and regulations it tested.

In connection with the contract, we reviewed UKW’s report and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit in accordance with U.S. generally accepted government auditing standards,
was not intended to enable us to express, and we do not express, opinions on Peace
Corps’ financial statements or internal control or conclusions on compliance with
laws and regulations. UKW is responsible for the auditor’s reports dated November
12, 2008, and the conclusions expressed in the reports. However, our review
disclosed no instances where UKW did not comply, in all material respects, with U.S.
generally accepted government auditing standards.

As required by OMB Circular A-136, Financial Reporting Requirements, this
audit report has been published within the Peace Corps’ FY 2008 Performance and
Accountability Report. In addition, a separate letter describing internal control
weaknesses which do not meet the definition of a significant deficiency, was issued
directly to Peace Corps management.


                Fiscal Year 2008 Federal Information Security
                           Management Act Review

The Federal Information Security Management Act (FISMA) mandates that federal
agencies establish effective information security protections and a program to secure
its information systems from unauthorized access, use, disclosure, modification,
and other harmful impacts. These requirements must be met through adherence to
specific guidelines established by the National Institute of Standards and Technology
(NIST). FISMA also requires OIGs to review their agency’s information security
programs annually. The Office of Management and Budget (OMB) is responsible for
reporting to Congress on the overall progress of the federal government in meeting
FISMA requirements. This is accomplished through a data collection tool that OMB
requires each agency to complete and provide to them annually. Both the agency
and their respective OIG are required to submit their responses on an OMB template
by October 1 of each year. The response data collected is designed to measure an
agency’s progress.

The OIG utilized a contract with UKW to perform the annual review of the Peace
Corps information security program. UKW assisted the OIG in preparing the
OMB reporting template for FISMA and provided three reports associated with


  Peace Corps Office of Inspector General                                        11
reviewing a representative sample of Peace Corps information systems. Overall, the
review concluded that Peace Corps has made positive strides over the last few years
in addressing its information security weaknesses and there has been significant
progress toward becoming fully compliant with FISMA. The Agency is maintaining
a comprehensive system inventory. Further, the Office of the Chief Information
Officer continues to implement Information Technology Security Requirements
based on NIST Special Publication 800-53, Recommended Security Controls for
Federal Information Systems; and has refined its Certification and Accreditation
process guide. During FY 2008, Peace Corps issued three Authorizations to Operate
and two Interim Authorizations to Operate for its information systems. However,
Peace Corps still faces some important challenges in becoming fully FISMA
compliant. For example, although four Peace Corps’ information systems have
received their initial Authorizations to Operate and two other systems have received
an Interim Authorizations to Operate, it is critical that the remaining eight systems
become fully certified and accredited to meet FISMA requirements. Other challenges
noted include: risk assessments and system security plans had not been completed
for some of the Agency’s systems; contingency planning controls were inadequate;
updated information security policies and procedures lacked timely approval and
issuance; and controls over the Plan of Action and Milestone’s Process were not up to
date.


               Peace Corps Purchase Card Program: Audit

The Office of Acquisitions and Contract Management (OACM) manages the Peace
Corps Purchase Card Program. The OACM agency program coordinator and three
contract specialists develop purchase card policies, provide training, oversee purchase
card use, and report program information to management. The Office of Global
Accounts Payable is the designated billing office, responsible for payment of the
purchase card invoices. At the end of FY 2007, Peace Corps was responsible for 148
active purchase card accounts both domestically and overseas. The aggregate monthly
credit authorized for all Peace Corps purchase card accounts was approximately $6.4
million.

The Peace Corps did not manage its Government Purchase Card Program effectively
and in accordance with the Office of Management and Budget Circular A-123
Appendix B. This occurred because Peace Corps did not ensure adequate internal
controls over its Government Purchase Card Program. Specifically, the Peace Corps:
•	 Did not implement policies and procedures for the use of convenience checks,
   purchase of “Do Not Buy” items, and reoccurring training requirements.
•	 Lacked controls over the account setup, maintenance, and closure processes
   necessary to ensure proper authorization, timely processing, and segregation of
   duties.
•	 Did not conduct adequate monitoring of cardholder accounts and transactions
   and sufficient risk assessments.

12              Semiannual Report to Congress   October 1, 2008 - March 31, 2009
As a result, Peace Corps employees purchased $3,033 of unauthorized items, did
not always use the most efficient means of payment, and did not fully comply with
federal purchase card and contracting regulations.

Peace Corps made significant improvements during FY 2008 and corrected
deficiencies identified during the audit. However, the Office of Acquisitions and
Contract Management could further strengthen controls over its Government
Purchase Card Program by:
•	 Updating Peace Corps Manual section 731, “Purchase Card Program” to include
   convenience check guidance and a continual training process.
•	 Developing a policy that defines the process a cardholder must use and the
   approvals necessary to purchase an item on the “Do Not Buy” list, including the
   purchase of refreshments and furniture for personal use.
•	 Developing a process to verify the direct hire status of all new cardholders before
   issuing a purchase card.
•	 Issuing a policy memorandum reminding cardholders and approving officials to
   notify the agency program coordinator immediately when transferring offices or
   leaving the Peace Corps.
•	 Aligning the risk assessments with internal control standards to include all
   elements required by the Office of Management and Budget.

Management fully concurred with two recommendations, partially concurred
with two recommendations, nonconcurred with three recommendations and
nonconcurred with parts of two recommendations. At the end of the reporting
period, one recommendation is closed and eight remain open.


                                    PC/Guatemala: Audit

We issued our audit report of Peace Corps/Guatemala January 12, 2009. More than
4,500 Volunteers have served in Guatemala since the arrival of the first group in
1963, and they have provided community development assistance in rural and poor
areas. At the time of our review, approximately 175 Volunteers were working with
public and private institutions, providing assistance through projects in agriculture,
environment, health, municipal development, and youth sectors.

We found that Peace Corps/Guatemala’s financial and administrative operations were
not functioning effectively and did not fully comply with Agency policy and federal
regulations. We identified several areas that need improvement. Some of the more
important findings are summarized below:

•	 Collections from Volunteer living allowance refunds were not recorded in the
   accounting system with a bill of collection. As a result, refunds of Volunteer
   allowances totaling $6,911.61 are unaccounted for. Also, funds being kept
   outside of the imprest fund were vulnerable to loss and misappropriation.

  Peace Corps Office of Inspector General                                      13
•	 The post did not seek authority from the Chief Acquisition Officer to pay
   benefits in excess of what is required by the local compensation plan. As a result,
   the post was incurring unnecessary payroll costs of over $50,000 annually.
•	 The post did not maintain adequate medical supply records for all
   pharmaceuticals including performing the necessary inventory verifications.

Management concurred with all 21 recommendations. At the end of the reporting
period, all recommendations are closed.


                                  PC/Guinea: Audit

We issued our audit report of Peace Corps/Guinea March 31, 2009. The Peace
Corps began its program in Guinea in 1962. At the time of our visit, 65 Volunteers
were working in the areas of public health, small enterprise development, education
and agro-forestry. The country director and administrative officer arrived at the post
in June 2008 and March 2008, respectively.

We found no reportable conditions in the areas of the post’s imprest fund
verification, grants and contributions, and travel. However, we found several
functions of Peace Corps/Guinea’s financial and administrative operations that
were not in compliance with Agency policy and/or federal regulations, and internal
control over certain operations was not effective. The more significant findings are
summarized below:
•	 The post did not document the conduct of independent “market basket”
   surveys for Volunteer settling-in allowances. In addition, the post could not
   provide support for travel allowances. Deposits and disbursements made
   to a “package fund” used to pay customs fees for personal packages sent to
   Volunteers from outside the host country were not always tracked and some
   funds were unaccounted for. Also, specific guidance for managing the process
   for reimbursing the Agency for Volunteer package fees has not been addressed by
   Peace Corps.
•	 Sub-cashier funds were not periodically verified and personal services contractors
   were designated as sub-cashiers in violation of Peace Corps policy.
•	 Separation of duties between those who maintained the property inventory
   records and performed the physical inventory did not exist. Also, property
   inventory records were not properly maintained.
•	 Separation of duties between those who maintained the medical inventory
   records and performed the physical inventory did not exist. Also, the medical
   supplies inventory record was not accurate.
•	 Purchases made with the post’s purchase card were not approved by the approving
   official before they were made.




  14               Semiannual Report to Congress   October 1, 2008 - March 31, 2009
The report contained 41 recommendations; management concurred with 40
recommendations and partially concurred with one recommendation. At the end of
the reporting period, 37 recommendations are closed and four remain open.


                                       PC/Samoa: Audit

We issued our audit report of Peace Corps/Samoa March 31, 2009. More than
1,600 Volunteers have served in Samoa since the arrival of the first group in 1967.
At the time of our audit, 42 Volunteers, including 12 newly sworn-in Volunteers,
were engaged in two project areas: capacity building and village-based development.
At the time of our visit, the country director had been at the post approximately six
months. The administrative officer has been in her position since 1993.

We found that Peace Corps/Samoa’s financial and administrative operations and its
compliance with Agency policies and federal regulations required improvement. We
specifically found that internal control standards required strengthening. Some of
the more important findings are summarized below:
•	 The safety and security coordinator received interim advances but was not on the
   country director’s authorization list. In addition, the cashier did not return the
   liquidated interim advance form to the payee upon settlement.
• Payments made to the training village during pre-service training need to be
   reviewed for propriety and appropriate handling. We noted payments totaling
   approximately $840 related to entertainment expenses. We found another
   payment of approximately $400 for cooked meats, food baskets, and cans
   of corned beef that were brought to the Peace Corps office and distributed
   principally among the staff.
•	 The administrative unit was unable to locate the Volunteer living allowance
   surveys and related market basket surveys performed in fiscal years 2007 and
   2008. Additionally, the post did not conduct settling-in allowance surveys for
   two of the four groups of new Volunteers in 2007 and 2008, and did not have
   these surveys on file for the other two groups. Also, the post did not always send
   e-mail notifications of departing Volunteers to headquarters within 24 hours.
•	 The post maintained a manual bills of collection log rather than using the
   ForPost-generated log; the post’s manual log was incomplete. Further, the
   billings officer, who was also in charge of ForPost data entry, occasionally
   performed banking activities.
•	 The post’s property inventory listing contained discrepancies. Further, some
   items had two tags affixed to them, and two items were missing tags. Also, three
   items on the inventory were not in operating condition. In addition, the same
   person maintained the inventory data base and performed the physical inventory.
•	 Staff did not always submit their international travel vouchers within five days
   of the trips’ completion. Further, submission dates on the travel vouchers did
   not always correspond with the actual travel dates. Also, most international
   travel vouchers showed discrepancies, which were corrected by the headquarters

  Peace Corps Office of Inspector General                                     15
     voucher examiner. In addition, the post did not comply with the Fly America
     Act requirement to purchase seats on U.S. flag air carrier service including
     code share flights. Finally, two travel vouchers raised questions about the
     appropriateness of an early arrival and an extended stopover en route home.

Management concurred with all 33 recommendations. At the end of the reporting
period, 30 recommendations are closed and three remain open.


                                PC/Swaziland: Audit

We issued our audit report of Peace Corps/Swaziland November 20, 2008. The Peace
Corps began its program in Swaziland in 1969. Post operations were closed in 1996
due to budgetary constraints and reopened in 2003. At the time of our visit, 32
Volunteers were working in the health sector’s HIV/AIDS Prevention and Mitigation
project.

Peace Corps/Swaziland’s financial and administrative operations were generally
functioning effectively and complied with Agency policy and federal regulations.
We found no reportable conditions in the areas of the post’s filing system, imprest
fund verification, International Cooperative Administrative Support Services, and
communications and IT Security. However, we identified some areas that need
improvement. The more significant findings are summarized below:
•	 The post approved and recorded travel-related obligations after the travel
   occurred. Purchases made with the post’s purchase card were not approved
   before they were made.
•	 The cashier did not personally set the combination to her safe. Imprest funds
   were not kept in cash boxes within the safe in accordance with Peace Corps
   policy.
•	 The general services assistant maintained the inventory records and also
   performed the physical inventory. Receipting for issuing and returning loaned
   non-expendable property was inconsistent.
•	 Medical inventory was not accurately or consistently maintained and physical
   verifications were not performed monthly. Separation of duties was inadequate
   and disposals were not documented.

Management concurred with all 22 recommendations made in our report. At the
end of the reporting period, all recommendations are closed.


                          PC/Uganda: Follow-up Audit

During the period January 26 – February 6, 2009, we conducted a follow-up audit
to verify the status of the 19 recommendations that remained open after our previous


16               Semiannual Report to Congress   October 1, 2008 - March 31, 2009
follow-up audit conducted September 18 – 22, 2006. Management had concurred
with all recommendations in our initial audit report conducted March 1 – 21, 2005.

As a result of this follow-up audit, we verified that the post had taken appropriate
action on 15 of the 19 recommendations, and we determined that four
recommendations required additional action. Subsequent to our visit, the post took
the required action on two of the four reopened recommendations, and we closed
them.

We reopened the recommendation related to outstanding debts over 90 days old.
We found that bills of collection were sometimes prepared, and collections made,
numerous months after the receipt of the related phone bills. We also reopened
the recommendation related to the review of the vehicle logs. We found that the
administrative officer and the staff member responsible for billing for personal use of
post vehicles were not reviewing, initialing, and dating the logs as required.

At the end of the reporting period, two recommendations remain open.




  Peace Corps Office of Inspector General                                      17
           Program Evaluations

                                        Overview

The Peace Corps’ OIG Evaluation Unit provides senior management with
independent evaluations of all management and operations of the Peace Corps,
including overseas posts and domestic offices. OIG evaluators identify best practices
and recommend program improvements to comply with Peace Corps policies. Our
current focus strives to provide management with a comprehensive assessment of how
overseas posts and programs are functioning. Evaluations are conducted under the
direction and guidance of the Assistant Inspector General for Evaluations.

Posts evaluations include a review of Agency documents provided by headquarters
and post staff and headquarters interviews with management staff representing
the region, the Office of Overseas Programming and Training Support, and
other stakeholders. Once in country, evaluators review the Volunteers’ sites and
assignments, Volunteer safety and security, the quality of Volunteer training, the
quality of the support provided to Volunteers, and the adequacy of the post’s
administrative infrastructure to manage the program.
Evaluators interview appropriate embassy and host country representatives, Peace
Corps staff, and Volunteers at their sites. The Volunteers we visit are determined by
a stratified judgmental sample of 20% of currently serving Volunteers based on their
length of service, site location, project focus, gender, age, marital status and ethnicity.
Evaluators conduct Volunteer interviews at the Volunteers’ homes and inspect the
homes using post-defined site selection criteria. The period of review for a post
evaluation is one full Volunteer cycle (typically 27 months). For post evaluations, we
use the following researchable questions to guide our work:

• 	 To what extent has the post developed and implemented programs intended
    to increase the capacity of host country communities to meet their own
    technical needs?
• To what extent has the post implemented programs to promote cross-cultural
    understanding?
• 	 To what extent does training provide Volunteers the necessary knowledge,
    skills, and attitudes to integrate into the community and perform their jobs?
• 	 To what extent has the post provided adequate support and oversight to
    Volunteers?
• 	 To what extent are post resources and agency support and oversight effectively
    aligned with the post’s mission and program, and agency priorities?
•	 Is the post able to adequately administer the PEPFAR program, support
    Volunteers, and meet its PEPFAR objectives? (Only applicable to posts receiving
    PEPFAR funds.)

18                Semiannual Report to Congress   October 1, 2008 - March 31, 2009
Peace Corps OIG evaluations are conducted in accordance with the Quality
Standards for Inspections published by the Council of the Inspectors General on
Integrity and Efficiency (CIGIE). The findings and recommendations provided in
our evaluation reports are reviewed by agency stakeholders affected by the review to
ensure: (1) that our recommendations are feasible and (2) that our reports are useful
to the Agency in its effort to strengthen internal controls and correct deficiencies.


                        Summary of Program Evaluations

         Peace Corps/Dominican Republic: Program Evaluation

We issued our evaluation of Peace Corps/Dominican Republic December 17, 2008.
Since 1962, over 4,600 Volunteers have served in the Dominican Republic. At
the time of our evaluation, 145 Volunteers were working in five projects: Health,
Education, Youth, Economic Development, and Environment.

Our evaluation of Peace Corps/Dominican Republic covered fiscal years 2006
through 2008. We found that post’s leadership and locally contracted training
resources are strong. Volunteers reported that they were satisfied with their
work and training received. In addition, they rated their perception of safety at
their homes and work sites as “above average” to “very safe.” However, we made
recommendations in the following areas to improve the effectiveness of the Peace
Corps program in Dominican Republic:

•	 Improve oversight to ensure both compliance with the post’s new Volunteer work
   and home site selection procedures and that Volunteers’ emergency location
   information is accurate and complete.
•	 Assess in-service training guidance to ensure counterpart participation during
   training.
•	 Include the training manager in senior staff meetings to maximize collaboration
   and improvements to training.
•	 Accurately evaluate Volunteer housing by revising the housing checklist to
   include all of post’s housing policy standards.
•	 Ensure that performance data is consistently collected by training post staff
   using region’s guidance, and by adequately training Volunteers how to complete
   trimester reports in their new format.

Management concurred with all seven recommendations. At the end of the
reporting period, four recommendations are closed and three remain open.




  Peace Corps Office of Inspector General                                     19
                 Peace Corps/Guyana: Program Evaluation

We issued our evaluation of Peace Corps/Guyana February 6, 2009. Peace Corps
first received a formal invitation from Guyana in 1966, the year of its independence.
From 1966 until 1971, more than 160 Volunteers served in Guyana with the
Peace Corps. Peace Corps discontinued the Guyana program in 1971 after the
Government of Guyana requested all overseas voluntary agencies to leave. After an
absence of nearly a quarter-century, Peace Corps officially reopened a joint Peace
Corps office for Suriname and Guyana in March 1995. During 1997, PC/Guyana
and PC/Suriname split to form two separate programs. At the time of the OIG
evaluation, Peace Corps/Guyana had 56 Volunteers working in two projects: (1)
Community Health Education and (2) Education and Community Development.

Our evaluation of Peace Corps/Guyana covered fiscal years 2007 and 2008. We
found that the post has made significant improvements addressing recent challenges,
such as Volunteer satisfaction and staff performance. The post has benefited from the
leadership of the current country director who has worked to improve programming,
relationships between the staff and Volunteers, and the quality of the staff. As a
result, Volunteers interviewed as part of this evaluation reported satisfactory levels of
support from staff members and are integrating into their communities. The post
also has good relationships with local Ministries and project partners. The post is
executing its President’s Emergency Plan for AIDS Relief implementation plan and
is better integrating HIV/AIDS activities into current programming. In addition,
PC/Guyana recently implemented a new site matching process that appears to be
contributing to improved Volunteer site placement.

Despite these accomplishments, the OIG evaluation noted the following areas that
need improvement:
•	 Volunteers noted some training deficiencies, and the post needs to complete its
   competencies and learning objectives and improve its Trainee assessment process.
•	 Medical access controls were not being fully implemented. The post did not
   maintain an inventory of medical supplies on a routine basis, and Volunteer
   medical files and medical supplies were not securely stored at all times. Also,
   Volunteers were not receiving their medications in a timely manner.
•	 The post’s housing criteria was unclear, and several Volunteers had to be moved
   from the houses Peace Corps placed them in due to housing problems.
•	 Performance appraisals were not being done on a regular basis.
•	 The post has problems with staff turnover and morale, and there was a lack of
   clarity on roles and responsibilities for key programming activities, such as site
   development, that may undermine its recent successes if not resolved.
•	 The post needs to remain focused on improving current programming and
   operations before exploring expansion efforts.

Management concurred with all 20 recommendations. At the end of the reporting
period, 11 recommendations are closed and nine remain open.
20               Semiannual Report to Congress   October 1, 2008 - March 31, 2009
                 Peace Corps/Nicaragua: Program Evaluation

We issued our evaluation of Peace Corps/Nicaragua December 10, 2008. At the
time of our evaluation, there were 158 Volunteers working in five project sectors: (1)
environment, (2) Small Business Development, (3) Agriculture/Rural Development,
 (4) Health, and (5) Teaching English as a Foreign Language (TEFL).

Our evaluation covered fiscal years 2006, 2007 and 2008. We found that PC/
Nicaragua benefits from engaged leadership and a resourceful team committed
to the success of the program in Nicaragua. PC/Nicaragua has developed and
implemented projects which engage Volunteers in meaningful work and cross-
cultural exchange. PC/Nicaragua had an active working relationship with multiple
levels of the Nicaraguan government and stakeholders seemed informed, engaged and
involved. Volunteers had a clear understanding of their projects’ goals and objectives
and were satisfied with their project sites. Volunteers rated their overall training as
very effective. Training staff’s institutional knowledge and integration into the PC/
Nicaragua team are also factors in the program’s success. PC/Nicaragua has had to
address multiple emergency action planning events in the last year and has improved
its time to report contact with Volunteers.

The OIG evaluation also noted the following areas for improvement:
•	 Volunteers could benefit from consolidation point addresses and street maps in
   the post’s Emergency Action Plan.
•	 While the post also appears to be addressing and reporting crimes against
   Volunteers, there were discrepancies between the number of crime incidents
   recorded by the post and headquarters.
•	 Concerns about medical confidentiality due to the physical limitations of the
   medical office were raised.
•	 Volunteers described their living allowance as being inadequate, but ratings and
   living allowance survey response rates indicated that the post needs to collect
   additional information.

Management concurred with all eight recommendations. At the end of the reporting
period, seven recommendations are closed and one remains open.




  Peace Corps Office of Inspector General                                      21
                   Investigations

                                       Overview
The Office of Inspector General is authorized to conduct investigations into waste,
                                            
fraud, and abuse in Peace Corps programs and operations both domestically and
overseas. In the performance of this mandate, the OIG investigates both criminal
allegations and administrative misconduct such as ethics violations. The OIG
develops policies to respond to criminal and administrative allegations and to
coordinate and supervise such investigations. The OIG often works with other
offices within the Peace Corps and/or law enforcement officials from other agencies.
These include Immigration and Customs Enforcement, the State Department’s
Office of Diplomatic Security Services, the Federal Bureau of Investigation (FBI), the
Department of Labor, and the Department of Justice, as appropriate.

Allegations are forwarded to the Office of Inspector General through various means,
including: OIG audits and evaluations, hotline complaints, Volunteers, Trainees,
staff, other federal entities, as well as the general public.

Until September 1, 2008, the Investigation Unit managed and coordinated the
Agency’s participation in the investigation and prosecution process of cases involving
violent crimes committed against Peace Corps Volunteers. This function was
transferred to the Peace Corps Office of Safety and Security; however, the OIG has
retained cases in which OIG was involved prior to the transfer. In addition, because
the OIG has responsibility for investigating allegations of wrongdoing by Peace
Corps employees, contractors, and Volunteers, the OIG has continued jurisdiction
over violent crimes committed by an employee, contractor, or Volunteer.


                   Violent Crime Against Volunteers

This is the first reporting period since the Agency transferred violent crimes from
the OIG to the Office of Safety and Security. On September 1, 2008, the Peace
Corps Director transferred the responsibility for coordinating the investigation of
violent crimes committed against Peace Corps Volunteers to the Office of Safety and
Security. As agreed upon, the OIG continues to provide oversight of legacy cases that
occurred prior to the transfer of responsibility.

As of the end of March 31, 2009, the OIG closed 193 preliminary inquiries and 13
investigative cases involving violent crimes. The following table demonstrates the
areas of our closed cases.


22               Semiannual Report to Congress   October 1, 2008 - March 31, 2009
          Type of Investigation                      Number of Cases
    Attempted Assault                                     16
    Attempted Burglary                                     1
    Attampted Rape                                         2
    Burglary with Volunteer Present                       48
    Death                                                  3
    Intimidation                                          36
    Kidnapping                                             3
    Major and Other Physical Assault                      12
    Major Sexual Assault                                   5
    PROTECT Act                                            2
    Rape                                                  14
    Robbery                                               65
    TOTAL                                                    206



                                   Violent Crime Cases

             On-going Investigation of a Murdered Volunteer

The 1998 murder of a Peace Corps Volunteer remains unresolved; a FBI Legal
Attache based in Dakar traveled to Libreville, Gabon and met with several U.S.
Government (USG) and Government of Gabon (GOG) officials in November 2008,
to determine the required actions to bring this case to closure. During the course
of those meetings, all parties agreed that identifying and hiring a local attorney to
represent the interests of the USG and the victim’s family would be the best way to
proceed. The Peace Corps/OIG agreed to assist in the search for legal representation
and pay for the attorney’s services. In February 2009, the Assistant Inspector General
for Investigations met the FBI Legal Attache, and the Regional Security Officer
(RSO) assigned to the U.S. Embassy in Libreville to interview potential attorneys.
The selected attorney is researching the current status of the case. In preparation for
the retrial in March 2009, the Ambassador sent a letter to the GOG revisiting the
homicide case and discussing the feasibility of refiling the case in the Gabonese court
system.

                  Additional Active Violent Crime Investigations

•	 Previously, we reported that a Volunteer serving in a Caribbean country was
   the victim of an attempted rape. During the attack, the Volunteer fought her
   assailant and her neighbors arrived and interrupted further injury to the victim.
   This matter was reported to the police and the suspect was apprehended and


  Peace Corps Office of Inspector General                                      23
     placed into custody. In August 2008, the Volunteer identified her assailant via
     photo-identification which was jointly administered by host country police and
     the OIG. Host country police also transferred evidence to the OIG, which was
     taken to the FBI laboratory for analysis.

	    In December 2008, the OIG accompanied the Volunteer back to the host
     country. The Volunteer positively identified her assailant in a police lineup. The
     Volunteer also testified in court at a preliminary hearing. The suspect remains in
     police custody awaiting trial.

•    Previously, we reported the alleged rape of a Volunteer serving in South America.
     The Volunteer identified her attacker; the alleged perpetrator was subsequently
     arrested and later identified as a police officer for the host country’s national
     police. An OIG special agent accompanied the Volunteer back to the host
     country in September 2008 to testify against the suspect; however, no verdict
     was reached. The presiding judge requested additional evidence to corroborate
     the Volunteer’s testimony. In the interim, the suspect, who had been held for
     six months, was released per local law. According to the attorney hired by the
     OIG, the case is pending until additional evidence is found to corroborate the
     Volunteer’s testimony.


         Judicial Disposition of Cases Involving Violent Crimes
                           Against Volunteers

•    The OIG was informed that the Appeals Court for a Caribbean nation had
     upheld the attempted rape conviction and 10 year prison sentence of a host
     country national. The Appeals Court upheld a lower court’s decision to convict
     the suspect in the attempted rape and sexual assault of the Peace Corps Volunteer.

•    In a South Asian country, a Volunteer’s residence was burglarized of currency.
     Local police identified a suspect after he began spending an unusual amount
     of money at local taverns. When questioned, the suspect confessed and was
     subsequently charged and convicted of the crime. For part of his judicial
     sentence, he was required to perform three months of community service.


              Title 18 Criminal And Other Investigations

    Investigation of Federal Employees’ Compensation Act Recipients

During this reporting period, we reviewed past cost savings attributed to the two
mass mailings and assessed the potential benefits of conducting another mailing.
In fiscal years (FYs) 2006 and 2007, the OIG mailed letters to all 1,200 of the



24               Semiannual Report to Congress   October 1, 2008 - March 31, 2009
Agency’s FECA claimants reminding them of their obligations under FECA to report
any changes regarding their health, employment or disability status to the Office
of Workers’ Compensation Program (OWCP). The purpose of the letters was to
encourage those who no longer met disability status to voluntarily take themselves
off the rolls or reduce their benefits without the need for OWCP and the Office of
Medical services (OMS) to scrutinize claims or have Peace Corps OIG investigate
them.

Using OWCP records of medical compensation recipients for FY 2006 through FY
2008, our analysis found:
•	 Thirty-five claimants ceased their compensation benefits by the end of FY 2006.
   Based on their compensation payments, the Agency saved at least $293,675
   annually because these individuals no longer received medical compensation
   payments.
•	 Thirty-one claimants ceased their compensation benefits by the end of FY 2007.
   Based on their compensation payments, the Agency saved at least $232,702
   annually because these individuals no longer received medical compensation
   payments.

Our analysis also disclosed that we had underestimated the potential savings
attributed to the mailings. Without interviewing each claimant to determine the
reason they that dropped off the Agency’s FECA rolls, we attributed the spike in
voluntary removal from the FECA rolls partially to the mailings and reported the
savings as approximately $500,000. However, we did not calculate or report the
actuarial savings, which reflects the lifetime savings of these claims. When these costs
are extrapolated to reflect the actuarial savings over the life of these claims, which is
officially computed as the life expectancy through 78 years of age, the cost savings
are much higher than we reported. For example, three claimants that voluntarily
dropped off the Peace Corps FECA rolls in 2006 saved the Agency $2,226,428 over
the lifetime of their claims. In comparison, the annual cost savings for these three
claimants was $46,670. This case in point demonstrates the importance and value to
the Agency of eliminating fraudulent FECA claims.

Due to a complete turnover and a reduction in the number of special agents assigned
to the Investigation Unit, the OIG did not have the opportunity to visit any OWCP
district offices during this reporting period. In prior reporting periods, the OIG
has partnered with OMS to visit OWCP district offices and review FECA claims to
ensure that claimants have updated their status information and legitimately meet
program requirements.

During the next reporting period, the OIG will continue to investigate potential
FECA fraud. Our new special agents will respond to fraud indicators, such as those
claimants with no or low medical costs but high compensatory benefits; death
claimants who were young when their spouse died, but have no record of being

  Peace Corps Office of Inspector General                                       25
remarried; high medical costs involving potentially addictive drugs; recognized
overpayments; and claimants that may have unreported terminations.


              Active Title 18 Criminal And Other Investigations

•    The OIG received allegations regarding improper personnel practices and
     irregularities in the acquisition of Peace Corps vehicles at a South American post.
     Our ongoing investigation validated several of the allegations. Other
     irregularities at this post are still being investigated.

•	 Previously, we reported the embezzlement of funds by a cashier at a southern
     African post. The former cashier was terminated from his position for suspicious
     financial transactions and questioned funds that exceeded $55,146. The cashier
     is being tried for fraudulent accounting. During this reporting period, the
     Assistant Inspector General for Investigations returned to the post to testify in
     court about the embezzled funds and the cashier’s criminal initiatives. As of the
     last date in this reporting period, the court has not ruled on this matter.

•    A Volunteer in a Central Asian country was arrested for trespassing and criminal
     charges were filed. The OIG coordinated with headquarters offices and the
     Agency hired local legal counsel to represent the Volunteer. The criminal case
     against the Volunteer is pending.

•    The Agency requested that the OIG investigate the alleged improper release of
     confidential information contained in a complaint made by a Volunteer against
     a part-time contract employee at a Peace Corps post in Africa. The OIG is
     currently investigating how this matter was handled by post management.


              Closed Title 18 Criminal and Other Investigations

• 	 A country director in a Pacific Island country sent electronic mail correspondence
    to Peace Corps headquarters with questions regarding a pornographic image
    found on a printer used by several contractors and staff at the post. An OIG
    investigation disclosed that the image potentially qualified as child pornography
    which is a violation of U.S. law and Peace Corps policy. Through coordination
    with the OIG, on August 12, 2008, the country director and the Office of the
    Chief Information Officer arranged for five hard drives attached to the subject
    printer to be disconnected and transferred to the U.S. State Department/
    Diplomatic Security Service/Criminal Investigation Liaison Division (DSS/CIL)
    for analysis. DSS/CIL found additional pornographic images on the five hard
    drives.




26                Semiannual Report to Congress   October 1, 2008 - March 31, 2009
	   The OIG arranged for the National Center for Missing and Exploited Children
    (NCMEC) to analyze the initial pornographic image found on the printer and
    four additional images deemed to be possible child pornography by the DSS/
    CIL. NCMEC concluded that the printed image was not child pornography.
    NCMEC analyses of the other four images could not establish with certainty that
    the additional images were of children.

	   DSS/CIL analysis of the five computer hard drives disclosed that ten current and
    former contractors and staff had inappropriate pornographic images
    and/or material on their hard drives. One individual had over 1,600 potentially
    pornographic images on his Peace Corps-issued computer hard drive, including
    several unconfirmed images of children. In addition, the investigation also found
    that two contractors had shared their user identifications (userid) and passwords
    with other contractors at post.

	   Of the nine contractors having possible pornographic images on their computer,
    six contractors had resigned prior to the conclusion of the OIG investigation. Of
    the three remaining contractors, one contractor was issued a letter of reprimand,
    placed on Leave Without Pay status, and was counseled about inappropriate
    computer usage.

•   It was reported to the OIG by the Chief Administrative Officer, Office of
    Volunteer Recruitment and Selection, that a cell phone assigned to a regional
    recruitment office was unaccounted for and had unauthorized charges exceeding
    $9,000. The OIG investigation confirmed that over $10,000 in unauthorized
    charges were incurred on the subject cell phone between October 25, 2007 and
    April 6, 2008. The investigation also disclosed that the regional recruiting office’s
    administrative officer submitted the fiscal year annual property inventory that
    included a statement alleging, “all thefts or damages to Peace Corps property
    assigned to office staff, Volunteers, and contracted personnel have been properly
    investigated and documented.” The missing cell phone was erroneously
    accounted for in the regional office’s inventory.

	   The investigation also found problems with Peace Corps’ internal control and
    oversight of billing records. Specifically, the administrative liaison, who receives
    billing statements for domestic cell phones, did not properly review cell phone
    bills for the majority of period in question. As a result, billing statements with
    unauthorized charges for games, ringtones, wallpaper, and over 90 international
    calls went unchallenged until April 2008.

	   Senior managers in the responsible billing office were reluctant to recognize
    any lack of oversight and accounting of cell phone bills, though they are
    central repository for such records. While acknowledging that there should




        Peace Corps Office of Inspector General                                        27
     be some accountability, they attributed the blame to the regional office stating
     that officials there needed to keep better track of their assigned property and
     equipment. The OIG is currently auditing internal controls in this business unit.

•    An OIG special agent was dispatched to a Pacific Island post to investigate a
     complaint that a third country national contractor had submitted an invoice
     containing false information. The OIG verified that the invoice contained costs
     that were approximately $1,000 more than the actual costs. The contractor
     confessed to submitting the fraudulent invoice and intentionally trying to deceive
     the Agency. The contractor’s employment with the Agency has been terminated.
     Other irregularities at this post are still being investigated.

•    The OIG deployed a special agent to a Peace Corps post in East Africa to
     investigate allegations of overpayments for goods and services. An OIG auditor
     was already at the post conducting a routine post audit. The OIG investigation
     confirmed that the post had overpaid vendors for certain goods and services. The
     investigation also verified that employees had solicited bribes from vendors, stolen
     government funds, and failed to report criminal acts by fellow employees in a
     timely manner. Three employees working in the post’s General Services Office
     were placed on administrative leave pending their termination of employment.

•    Previously, we reported that a Volunteer in a Caribbean post had posted
     inappropriate material in a “blog,” including pictures of a young boy. The
     investigation disclosed that the Volunteer had already been admonished by
     the country director and the principal of a host country elementary school for
     inappropriate behavior. At the conclusion of the investigation, the Volunteer
     resigned service early with the Peace Corps in lieu of being administratively
     separated.

	    Subsequent information received about this Volunteer revealed that he is
     currently teaching at an elementary school in the United States. The OIG has
     made a referral to federal law enforcement agents assigned to the National Center
     for Missing and Exploited Children.

•    Previously, we reported an allegation that a Volunteer serving in an Eastern
     Europe had consensual sex with a minor. The OIG conducted a full investigation
     and obtained witness statements to corroborate the allegation; however, the
     minor declined to cooperate with the investigation and refused to file charges
     against the Volunteer. During this reporting period, the investigation was
     referred to Immigration and Customs Enforcement Cyber Crimes Center Child
     Exploitation Unit.




28                Semiannual Report to Congress   October 1, 2008 - March 31, 2009
•    A Volunteer serving in Central Asia reported that she had been sexually assaulted
     by a fellow Volunteer. The victim came to Washington, D.C. for medical care.
     When questioned by the OIG, she elected to decline participation in legal action
     against the perpetrator. The OIG investigated the incident at the post and
     obtained witness statements which supported some of the victim’s allegations.
     Additionally, the OIG received information regarding additional sexual assaults
     and harassment conducted by the perpetrator. The perpetrator resigned from the
     Peace Corps in lieu of administrative separation. The Volunteer victim returned
     to the post to complete her service.




    Peace Corps Office of Inspector General                                   29
             TABLE 1: List of Reports : Audits and Evaluations




                                    Headquarters Audits

FY 2008 Financial Statement Audit: An Opinion on the Financial Statements
FY 2008 Financial Statement Audit: A Report on Internal Control
FY 2008 Financial Statement Audit: A Report on Compliance with Laws and Regulations
Federal Information Security Management Act Review
Peace Corps Purchase Card Program                                             Audit


                                    Overseas Post Audits

Peace   Corps/Guatemala                                                                    Audit
Peace   Corps/Guinea                                                                       Audit
Peace   Corps/Samoa                                                                        Audit
Peace   Corps/Swaziland                                                                    Audit
Peace   Corps/Uganda                                                             Follow-up Audit


                       Overseas Post Program Evaluations

Peace Corps/Dominican Republic                                               Program Evaluation
Peace Corps/Guyana                                                           Program Evaluation
Peace Corps/Nicaragua                                                        Program Evaluation




        30          Semiannual Report to Congress   October 1, 2008 - March 31, 2009
          TABLE 2: Reports Issued with Questioned Costs or
                     Funds Put to Better Use




                                                                    Value              Note

Audit of
Peace Corps/Guatemala 		 $	 256,388.67                                           	        1

Audit of
Peace Corps/Swaziland 	                                       $	      240.00		 2

Audit of
Peace Corps/Samoa 		 $	                                             6,153.00     	        3

Audit of
Peace Corps/Guinea	                                           $	   25,504.00		 4

Audit of
Peace Corps Purchase Card Program 	                           $	    3,083.00		 5



Total of Reports Issued with Costs   	
Questioned or Funds Put to Better Use			$	 291,368.67


Note:
1. Missing collections. Untimely receipt of funds. Unnecessary personal services contractor
   benefits.
2. Overpaid Volunteer living allowance.
3. Unauthorized purchases of personal expenses. Untimely collection of funds. Untimely
   deobligation of funds. Unsold excess property. Inefficient travel routing.
4. Unsupported costs. Unauthorized service payments.
5. Unnecessary service charges. Unauthorized purchases.




     Peace Corps Office of Inspector General                                         31
               TABLE 3: Status of Reports Issued by
                  OIG with Costs Questioned




                                                                Number of          Value
                                                                		Reports

A. Reports issued prior to this period
     For which no management decision had been	
     made on any issue	                                              0
     For which some decisions had been made
     on some issues	                                                 0

B. Reports issued during the period	                                 5    	    $232,947.21

Total of Categories A and B	                                         5    	   $232,947.21

C.	For which final management decisions were made	
	 during this period	                                                5    	    $232,947.21

D.	For which no management decisions were made
	 during the period	                                                 0

E.	 For which management decisions were made
    on some issues during the period	                                0	

TOTAL OF CATEGORIES C, D, and E	                                     5    	   $232,947.21




32              Semiannual Report to Congress   October 1, 2008 - March 31, 2009
                   TABLE 4: Status of Reports Issued by
                    OIG with Funds Put to Better Use



                                                 	
                                                     Number of        Value
                                                     Reports

A. Reports issued prior to this period	
    For which no management decision had been
    made on any issue	                                    0
    For which some decisions had been made
    on some issues		0                                                  0

B. Reports issued during the period	                      2 		 $58,421.46

Total of Categories A and B	                              2		 $58,421.46

C. For which final management decisions were made
  	during this period 	                                   2	     $58,421.46

D.	For which no management decisions were made
 	 during the period	                                     0            0

E. For which management decisions were made
   on some issues during the period	                      0            0

TOTAL OF CATEGORIES C, D, and E	                          2	     $58,421.46




   Peace Corps Office of Inspector General                       33
           TABLE 5: Reports with Recommendations on which Corrective
                        Action has not been Completed


                          Recommendations open 60 days or more
Report                                  				Date Issued                                      Number of Open
                                       											                                            Recommendations

PC/Nicaragua: Evaluation	                                              12/10/2008	                    1
PC/Dominican Republic: Evaluation	                                     12/17/2008	                    3
PC/Guyana: Evaluation	                                                  1/29/2009	                    9
                        Recommendations open 120 days or more
Report                                                   	              Date Issued 	 Number of Open
                                                                                      Recommendations

FY 08 Financial Statement Audit			                                     11/13/2008 	                  17
Federal Information Security Management Act 	                          11/15/2008	                   12

                        Recommendations open 180 days or more
Report                                      	                           Date Issued      	 Number of Open
                                                              	                             	Recommendations

Travel Policies and Procedures: Audit        	 6/27/2006                                             	3
PC/Eastern Caribbean: Evaluation           	   6/25/2007                                 	            3
PC/Eastern Caribbean: Audit			12/20/2007	                                                             7
Medical Clearance System: Evaluation	          3/31/2008	                                             9
Volunteer Safety and Security: Evaluation	     8/28/2008	                                             9
PC/El Salvador: Audit	                         9/22/2008	                                            15




              34              Semiannual Report to Congress       October 1, 2008 - March 31, 2009
                  TABLE 6: Summary of Investigative Activity


Cases                                                               	NUMBER
Cases opened as of 10/1/2008                                            	 57
Cases opened during 10/1/2008 - 3/31/2009                                	 8
Cases closed that were previously opened                              	 24
Cases opened and closed during 10/1/2008 - 3/31/2009                   	 4
Total open cases as of 3/31/2009                                     	 37
Referrals for Department of Justice Prosecution                        	 1
Referrals for Agency Administration Action                             	 4
Referrals to Others Agency                      	                          0

Domestic Court Actions                                          	   NUMBER
Trial(s) Pending                            	                             0
Convictions                      	                                        0
Acquittals 	                                                              0
Judgments 	                                                               0
Fines/Restitutions 	                                                      0

Overseas Court Actions                                      	       NUMBER       VALUE     	

Ongoing Prosecutions                	               	                     5		
Convictions 	                                                             2
Acquittals 	                                                              0
Judgments            	                                                    0
Fines/Restitutions                      	                                 0

Monetary Results                                                    	 NUMBER

Annual Savings 	                                                          2		    $3,400	
Recoveries/Restitution                          	                         1 		   $1,000
Cost Avoidance                  	                                         1		    $2,400

ADMINIstrative Actions	NUMBER
Employees (Resignations and Terminations)               	                 3
Other Employee Actions          	                                         4
Other Persons/Businesses     	                                            8




      Peace Corps Office of Inspector General                                      35
     TABLE 7: Summary of Hotline and Other Complaints




Complaints Received                                                              21
Complaints Closed                                                                21
Preliminary Inquiry                                                               8
Resulted in Investigations                                                        3
Resulted in Audits                                                                0
Resulted in Evaluations                                                           0
Referred to Agency Management                                                     2
Referred to Other Agency                                                          0
No Action Needed                                                                  8




36            Semiannual Report to Congress   October 1, 2008 - March 31, 2009
     TABLE 8: References to Reporting Requirements of
                the Inspector General Act


The Inspector General Act of 1978, as amended, specifies reporting requirements for
Semiannual Reports to Congress. The requirements are listed below and indexed to the
applicable page.

Act Reference        Reporting Requirements                                                 Page

Section 4(a)(2)      Review of legislation and regulations                                 None
Section 5(a)(1)      Significant problems, abuses, and deficiencies                        6 – 21
Section 5(a)(2)      Significant recommendations for corrective actions                    6 – 21
Section 5(a)(3)      Prior significant recommendations on which corrective action
                     has not been completed                                                  34
Section 5(a)(4)      Matters referred to prosecuting authorities                           28 – 29
Section 5(a)(5)      Summary of instances where information was refused                     None
Section 5(a)(6)      List of audit reports, including evaluations, inspections, and
                     reviews                                                                 30
Section 5(a)(7)      Summary of significant reports                                        10 – 21
Section 5(a)(8)      Statistical table - questioned costs                                    32
Section 5(a)(9)      Statistical table - funds put to better use                             33
Section 5(a)(10)     Summary of previous audit reports without management
                     decisions                                                             None
Section 5(a)(11)     Significant revised management decisions                              None
Section 5(a)(12)     Significant management decisions with which the Inspector
                     General disagrees                                                     None
Section 5(a)(13)     Information under Federal Financial Management
                     Improvement Act of 1996                                               None




     Peace Corps Office of Inspector General                                          37
Help promote the integrity, efficiency, and effectiveness of the Peace Corps.
Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or
unlawful activity involving Peace Corps program or personnel should call or
write the Office of Inspector General.

Call:
Main Office                  	 (202) 692-2900
Hotline                     	 (800) 233-5874


Write:
Peace Corps
Attn: Inspector General
1111 - 20th St., N.W.
Washington, DC 20526

Or

Peace Corps
Attn: Inspector General
P.O. Box 57129
Washington, DC 20037-7129

Email Hotline:                                 OIG@peacecorps.gov




     Information received is held in confidence to the maximum feasible extent.
Peace Corps
Office of Inspector General
Paul D. Coverdell Peace Corps Headquarters
1111 - 20th St., NW
Washington, DC 20526
